HHS/OIG-Audit--"Audit of Medicare Contractor's Segmented Pension Cost, Aetna Life Insurance Company, (A-07-93-00633)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Contractor's Segmented Pension Cost, Aetna Life Insurance
Company," (A-07-93-00633)
October 5, 1993
Complete Text of Report is available in PDF format
(2.19 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our review of the Aetna Life
Insurance Company's (Aetna) implementation of its Medicare contract clause on
pension plan segmentation. Our review disclosed that Aetna had, as of January
1, 1991, understated Medicare pension assets by $3.0 million. Aetna omitted
participants in its Medicare Systems Unit in computing the actuarial liability
of the Medicare segment for 1981. This omittance understated the 1981 asset
fraction. Aetna's use of the incorrect asset fraction and market value of pension
assets understated Medicare's pension assets as of January 1, 1986 by $384,702.
Also, Medicare's pension assets were understated by another $2,626,674 in the
update of Medicare segment assets from 1986 through 1990.